                                                                                 June 6, 2014

The Honorable Ray Mabus
Secretary of the Navy


Dear Secretary Mabus:

I am writing concerning eight patrol boats that are currently being stored at Naval Weapons Station
Yorktown. In April 2014, I sent an inquiry letter to the Commander of the Combined Security
Transition Command—Afghanistan (CSTC-A) concerning the procurement of these boats for the
Afghan National Police (ANP).

I became concerned about this procurement action following a review of email correspondence
indicating that these patrol boats were bought, but never delivered to the ANP. Subsequent
interviews with Defense Security Cooperation Administration and Navy International Programs Office
(NIPO) personnel confirmed that the patrol boats were procured by NIPO in coordination with CSTC-A
at a cost of more than $3 million in October 2010 using the Afghan Security Forces Fund (ASFF).
Less than nine months later CSTC-A cancelled the requirement. The patrol boats were almost fully
built at the time of the cancellation and would have been unusable unless completed. After the
patrol boats were completed, they were transferred to storage facilities at Naval Weapons Station
Yorktown in 2011.

I would like to inquire about what the Navy intends to do with these boats. It is my understanding
that the National Defense Authorization Act for Fiscal Year 2014, Section 1531 (Pub. L. No. 113-66)
gives the Department of Defense the legal authority to treat such equipment as DOD stocks. As DOD
stocks, these patrol boats could be sold, transferred to another U.S. government agency or
international partner (including the Afghan National Security Forces), or disposed of in some other
way. To clarify these matters, please provide the following information:
     The Navy’s plans for disposing of the patrol boats.
     The cost of storing the patrol boats since they were delivered to Naval Weapons Station
      Yorktown, and the funding source for the storage costs.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended,
and the Inspector General Act of 1978, as amended.
Thank you very much for you cooperation in this matter. Please provide this information no later than
June 27, 2014, to Jack Mitchell, Director of the Office of Special Projects, at
                                 or                   . Please do not hesitate to contact him should
you have any questions.




                                                              Sincerely,



                                                              John F. Sopko
                                                              Special Inspector General
                                                                for Afghanistan Reconstruction


Enclosure:        I: SIGAR-14-54-SP Inquiry Letter: ANP Patrol Boats
                  II: CSTC-A Memorandum of Request to the Department of the Navy requesting the
                  procurement of the patrol boats for the Afghan National Police




SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition                                     Page 2
ENCLOSURE I: SIGAR-14-54-SP INQUIRY LETTER: ANP PATROL BOATS




SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition     Page 3
SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition   Page 4
ENCLOSURE II: CSTC-A MEMORANDUM OF REQUEST TO THE DEPARTMENT OF
THE NAVY REQUESTING THE PROCUREMENT OF THE PATROL BOATS FOR THE
AFGHAN NATIONAL POLICE




SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition   Page 5
SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition   Page 6
SIGAR-14-67-SP Inquiry Letter: ANP Patrol Boat Disposition   Page 7
